                    Department of Veterans Affairs 

                          Office of Inspector General 



                    Healthcare Inspection

                     Evaluation of 

                 VHA Community Based 

                   Outpatient Clinics 

                    Fiscal Year 2012 





Report No. 13-00090-346                                       September 30, 2013

                            VA Office of Inspector General

                               Washington, DC 20420

To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                     Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012




                                                  Contents 

                                                                                                                    Page 


Executive Summary ..............................................................................................i 

Introduction ..........................................................................................................1 

    Purpose .............................................................................................................1 

    Background .......................................................................................................1 

    Scope and Methodology....................................................................................4 

Inspection Results ...............................................................................................6 

    Issue 1: CBOC Characteristics..........................................................................6 

    Issue 2: Management of Diabetes Mellitus–Lower Limb Peripheral Vascular 

    Disease .......................................................................................................... 10 

    Issue 3: Mammography Compliance.............................................................. 11 

    Issue 4: Credentialing and Privileging ............................................................ 12 

    Issue 5: Environment and Emergency Management ..................................... 13 

    Issue 6: CBOC Contract Review .................................................................... 15 

    Conclusions.................................................................................................... 19 

    Recommendations ......................................................................................... 20 

Appendixes
    A. Breast Imaging Reporting and Data System Scores ................................ 22 

    B. CBOCs Reviewed ..................................................................................... 23 

    C. Under Secretary for Health Comments .................................................... 25 

    D. OIG Contact and Staff Acknowledgments ................................................ 35 

    E. Report Distribution .................................................................................... 36 





VA Office of Inspector General
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012



                                  Executive Summary 

Introduction
The VA Office of Inspector General, Office of Healthcare Inspections completed
an evaluation of Veterans Health Administration (VHA) community based
outpatient clinics (CBOCs) for fiscal year 2012. The purpose of the evaluation
was to assess if CBOCs provide veterans with consistent, safe, and high-quality
health care. Our objectives were to determine whether VHA CBOCs have:

   	 Implemented processes to manage Diabetes Mellitus-Lower Limb
      Peripheral Vascular Disease to prevent lower limb amputation.

   	 Complied with selected VHA requirements regarding the provision of
      mammography services for women veterans.

   	 Providers who were credentialed and privileged in accordance with VHA
      Handbook 1100.19.

   	 Environments of care and emergency management processes in place as
      required.

   	 Provided Primary Care and Mental Health services at contracted CBOCs
      according to contract provisions and with required contract oversight.

Recommendations
To improve operations, we recommended that the Under Secretary for Health, in
conjunction with Veterans Integrated Service Networks and facility senior
managers:

   	 Ensure that CBOC clinicians document foot care education provided to
      diabetic patients in the electronic health record (EHR).

   	 Ensure that CBOC clinicians perform risk assessments and document risk
      levels for diabetic patients in the EHR.

   	 Ensure that CBOC clinicians document referrals for preventative foot care,
      including foot wear, as clinically indicated, for patients with diabetes in the
      EHR.

   	 Ensure that CBOC managers establish a process to consistently link
      breast imaging and mammography results to the appropriate radiology
      mammogram or breast study order for all fee basis and contract patients.


VA Office of Inspector General                                                                       i
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


   	 Ensure that CBOC managers establish a process to notify patients of
      normal mammogram results within the allotted timeframe and that
      notification is documented in the EHR.

   	 Ensure that service chiefs’ documentation in VetPro reflects documents
      reviewed and the rationale for privileging or re-privileging CBOC providers.

   	 Ensure that facility Directors grant privileges consistent with the services
      provided at the CBOCs.

   	 Ensure that adequate resources and controls are in place to address
      deficiencies in the invoice validation process and to reduce the risk of
      overpayments.

   	 Ensure that the oversight of the contract acquisition process is compliant
      with VA Directives, including a thorough pre-award review and interim
      contract authority prior to contract approval.

   	 Ensure that all new CBOCs undergo the required contract approval
      processes prior to initiating operations.

Comments
The Under Secretary for Health concurred with our findings and
recommendations. See Appendix B (pages 25–34) for the full text of his
comments. We accepted VHA’s action plans and had subsequent discussions
with VHA leadership regarding the need for all CBOC activations to be officially
approved prior to the start of clinical operations. We will follow up on the
corrective actions until all recommendations have been fully implemented.




                                                             JOHN D. DAIGH, JR., M.D.

                                                            Assistant Inspector General for 

                                                               Healthcare Inspections





VA Office of Inspector General                                                                       ii
                                   Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012



                                           Introduction 

Purpose
The VA Office of Inspector General (OIG) conducted a systematic review of the
Veterans Health Administration’s (VHA’s) community based outpatient clinics
(CBOCs) to assess whether they are operated in a manner that provides
veterans with safe, consistent, and high-quality health care in accordance with
VHA policies and procedures.

Our objectives were to determine whether VHA CBOCs have: (1) implemented
processes to manage Diabetes Mellitus-Lower Limb Peripheral Vascular Disease
to prevent lower limb amputation, (2) complied with selected VHA requirements
regarding the provision of mammography services for women veterans, (3)
providers who were appropriately credentialed and privileged as required, (4) an
environment of care (EOC) and emergency management (EM) processes in
place as required, and (5) provided Primary Care and Mental Health services at
contracted CBOCs according to contract provisions and with required contract
oversight.

Background
Since 1995, VHA has transitioned from a hospital bed-based system of care to a
more effective system rooted in ambulatory and primary care. CBOCs are an
important component of the VA health care delivery system as they aim to
improve access to health care services while providing high-quality care in a cost
effective manner.1 As requested in House Report 110-775, to accompany H.R.
6599, Military Construction, Veterans Affairs, and Related Agencies
Appropriation Bill, fiscal year (FY) 2009, the VA OIG has been systematically
reviewing VHA CBOCs since April 2009.

A VHA CBOC is a health care site that is geographically distinct and separate
from a parent medical facility and may be a site that is VA-operated and/or
contracted. The establishment of a VHA CBOC is subject to the: (1)
development of business plans, (2) application of national CBOC criteria, (3)
appropriate VA Central Office approval, (4) notification of Congress, (5)
availability of funds within the Veterans Integrated Service Networks (VISN), and
(6) applicable federal statutes and VA regulations.2 Additionally, CBOCs are
required to have a unique 5-digit station identifier for workload reporting
purposes.


1
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
2
    VHA Handbook 1006.1.


VA Office of Inspector General                                                                        1
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


VHA CBOCs can provide primary, specialty, subspecialty, mental health (MH)
care, or any combination of health care delivery services that can be
appropriately provided in an outpatient setting.3 This includes health promotion
(screening and counseling), disease prevention, and management of acute minor
illnesses and chronic conditions.4 Each CBOC is affiliated with a single VA
medical center or parent facility that is administratively responsible for that CBOC.
One standard of care must be maintained at the parent facility and CBOCs.

VHA established its Preservation-Amputation Care and Treatment (PACT)
Program in 1993 to prevent and treat lower extremity complications that can lead
to amputation. Best practices include annual foot screenings, preventive foot
care, and patient self-management and education.5 VHA policy requires the
identification of all patients at risk for limb loss from the day of entry to the VA
health care system through all levels of care. The provision of therapeutic
footwear and orthoses is also required for patients assessed with moderate or
greater risk for the development of foot ulcers.6

Since 2010, VHA has required that all sites providing primary care services must
offer comprehensive primary care to women veterans. VHA has specific
requirements that must be met by facilities that perform mammography services
for women veterans.7 This includes timely results notification to ordering
providers and patients with processes for appropriate follow-ups as needed.
VHA policy requires that test results be communicated to patients no later than
14 calendar days from the date the results are available to the ordering
practitioner.8

VHA also requires that mammography studies completed by fee or contract
providers or VA-certified mammography centers be linked to the provider order in
the Computerized Patient Record System (CPRS).9             Documentation of
mammography results must be described using the Breast Imaging-Reporting
and Database System (BI-RADS) category code.10 (See Appendix A.) VHA
CBOCs must also designate a Women’s Health (WH) clinical liaison to
coordinate women’s issues with the parent facility.



3
   VHA Directive 2008-048, Assignment of Station Number Suffix Identifiers for Community-Based Outpatient

Clinics (CBOCs), August 22, 2008. 

4
  VHA Handbook 1006.1. 

5
  VA/DoD Clinical Practice Guideline for the Management of Diabetes Mellitus, Version 4.0, August 2010. 

6
  VHA Directive 2006-050, Preservation-Amputation Care and Treatment (PACT) Program, September 14, 2006.

7
  VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

8
  VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009. 

9
  VHA Handbook 1330.01. 

10
   The American College of Radiology’s Breast Imaging Reporting and Database System is a quality assurance 

guide designated to standardize breast imaging reporting and facilitate outcomes monitoring.



VA Office of Inspector General                                                                           2
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


All VHA CBOC licensed independent providers (LIPs) must be credentialed and
privileged by the parent facility. The Credentialing and Privileging program
ensures that LIPs have the appropriate professional license(s) and other
qualifications to practice in a health care setting and that they practice within the
scopes of their licenses and competencies. Clinical privileges must be facility-
and practitioner-specific and within available resources at the clinical setting.11
The list of documents reviewed and the rationale for privileging conclusions
reached by the service chief must also be documented in VetPro.12

Ongoing reviews conducted by service chiefs must be comprised of activities
with defined criteria that emphasize the facility’s performance improvement plan,
appropriateness of care, patient safety, and desired outcomes. Ongoing
Professional Practice Evaluations allow the facility to identify professional
practice trends that impact patient safety and the quality of care.

VHA CBOCs must comply with the statutes and regulations applicable to
individuals with disabilities, including special patient populations [for example, the
Americans with Disabilities Act (ADA)]. Additionally, CBOCs are required to
comply with relevant regulatory and accrediting standards with respect to general
environmental safety, including the Office of Safety and Health Administration and
The Joint Commission.

VHA CBOCs must also maintain appropriate emergency response capability.
Parent facilities are responsible for making a determination as to the type of
equipment that needs to be located at the CBOC sites. CBOCs that do not have
trained Advance Cardiac Life Support providers, appropriate supplies, and/or a
Code team, are required to have an automated external defibrillator at their site.
Each CBOC must also have a local policy or standard operating procedure
defining how health emergencies are handled, including MH emergencies.13

The CBOC model provides VHA with the option of hiring VA staff or contracting
with outside health care providers to deliver care to veterans. If using the latter
option, CBOC contracts must meet requirements as outlined by the VHA
Procurement and Logistics Office and the Office of Patient Care Services.13 The
parent facility is responsible for ensuring that appropriate quality assurance
standards are in place, data collection is performed, and performance of medical
care is monitored. The inclusion of performance-based penalties provides VHA
the means to ensure that quality of care measures are met.

The interim contract authority (ICA) is intended to provide health care services on
a short-term or emergent basis. VA policies state that the terms and renewals of
11
   VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012. 

12
   VetPro is VHA’s electronic credentialing system.

13
   VHA Handbook 1006.1. 



VA Office of Inspector General                                                                      3
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


ICAs are strictly limited.14 ICAs are only approved for 180 days, but additional
authority may be granted on an exception basis, not to exceed 1 year.

Scope and Methodology
We performed this review with inspections of 92 VHA CBOCs during FY 2012.
These inspected CBOCs are a statistical sample of all VHA CBOCs with more
than 500 patients aligned under selected parent VA facilities. Our review focused
on four components: (1) FY 2012 CBOC-specific information gathering and
review, (2) EHR reviews of care performed in FY 2011 for determining
compliance with VHA policies, (3) on-site EOC and EM inspections during FY
2012, and (4) CBOC contract reviews of quarter 3 of FY 2011.

To determine compliance with VHA policy for each sampled CBOC, we reviewed
the EHRs of a random sample of 30 women veterans who were 50 to 69 years of
age and 30 patients 18 to 70 years of age at the time of the review with a
diagnosis of DM and no previous lower limb amputation(s). During site visits, we
inspected the CBOCs’ EOC and EM procedures and reviewed credentialing and
privileging folders of LIPs and scopes of practice and competency folders of non-
LIP staff. We also interviewed CBOC managers and VHA staff and discussed
preliminary findings related to compliance with VA policy and other regulatory
requirements.

We validated inspection results and reported deficiencies in 24 CBOC reports.
There are 14 standards that must be met for VHA CBOC operations.15 Nine of
the 14 VHA standards for CBOC operations were addressed during our reviews
and are discussed in this report.16

Study Population and Sample Design. The study population consists of all
patients who used VHA CBOCs for health care during FY 2011. We used a
multiple-stage complex probability sample design to select patients for chart
reviews. In the first stage of sampling, we statistically randomly selected 55 VA
Medical Centers (VAMCs) stratified by the 12 catchment areas of the Office of
Healthcare Inspection regional offices.

In the second stage of sampling, we utilized the list of sampled VAMCs and
selected 8 CBOCs within each of the 12 catchment areas. The number of
CBOCs selected from each sampled VAMC was proportional to the total number
of CBOCs under its supervision. Four of the 96 selected CBOCs were not
inspected because 1 was deactivated, 2 were recently established (too soon to

14
   VA Directive 1663, Healthcare Resources Contracting-Buying Title 38 USC 8153, August 10, 2006. 

15
   VHA Handbook 1006.1. 

16
   Staffing, Timeliness, Station Numbering, Cost Accounting, and Patient Complaints were omitted from this 

review.



VA Office of Inspector General                                                                           4
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


inspect), and 1 did not provide primary care. We inspected 92 CBOCs, which
included 72 VA-staffed and 20 contracted clinics. We also conducted a contract
review for the 20 contracted CBOCs.

In the third stage of sampling, we selected patients from the 92 CBOCs for
electronic health record (EHR) review. We randomly selected 30 patients within
each of the 92 CBOCs. All patients were included for chart review. If a CBOC
had fewer than 30 patients who met the criteria for a focused review, we
reviewed all of the patients.
Statistical Analysis. We estimated the VA compliant percentages for each of the
quality measures. Breast cancer screening quality measures were computed for
patients whose screenings were done on or after June 1, 2010.

To take into account the complexity of our multi-stage sample design, we used
Horvitz-Thompson sampling weights (reciprocal of sampling probabilities) to
account for unequal probability sampling and the Taylor expansion method to
obtain the sampling errors for the estimates. We set the desired levels of at least
90 percent for the breast cancer screening criteria.

We presented 95 percent confidence intervals (95% CI) for the true values
(parameters) of the study population. A confidence interval gives an estimated
range of values (being calculated from a given set of sample data) that is likely to
include an unknown population parameter. The 95% CI indicates that among all
possible samples we could have selected of the same size and design,
95 percent of the time the population parameter would have been included in the
computed intervals.

Percentages can only take non-negative values from 0 to 100, but their logits can
have unrestricted range so that the normal approximation can be used. Thus, we
calculated the confidence intervals for percentages on the logit scale and then
transformed them back to the original scale to ensure that the calculated
confidence intervals contained only the proper range of 0 to 100 percent. All
data analyses were performed using SAS statistical software, version
9.3 (TS1M0), SAS Institute, Inc. (Cary, North Carolina).

We conducted the review in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity
and Efficiency.




VA Office of Inspector General                                                                      5
                                  Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012



                                     Inspection Results
Issue 1:         CBOC Characteristics
We collected CBOC characteristics from web-based questionnaires completed
by the respective CBOC Directors/Managers. We aggregated the data from
survey responses to report the types of services offered by the CBOCs. We also
reported the number of unique patients enrolled in FY 2011 as available in VA
data sources. A summary of these results are reported in Table 1.
Table 1. FY 2012 Profile of Sampled CBOCs

                      CBOC Characteristic                                          Result
      CBOCs Inspected                                                               92
      Average Number of Patients Enrolled in FY 2011                    4,400 (range 159 to 29,501)
      Average Number of MH Patients Enrolled in FY 2011                   982 (range 21 to 6,491)
      CBOCs Providing Ancillary Services                                            88
      CBOCs Providing MH Services                                                   83
      CBOCs Providing Telehealth Services                                           79
      CBOCs Providing Specialty Care Services                                       50

Of the 92 CBOCs in our study sample, 72 were VA-staffed and 20 were
contracted sites.17,18 The localities consisted of 46 VA-staffed and 8 contracted
CBOCs in urban locations, 25 VA-staffed and 12 contracted CBOCs in rural
locations, and 1 VA-staffed CBOC in a highly rural location.19 Eighty-two CBOCs
were dedicated VA clinics, which provide care to veterans only; and 10 were
combined clinics that provide care to veterans and private patients.

The size of a CBOC is determined by the number of veterans served each year
and    is    categorized     as    very    large    (>10,000    uniques), large
(5,000-10,000), mid-size (1,500-5,000), and small (<1,500). Our CBOC sample
consisted of 9 very large, 18 large, 50 mid-size, and 15 small CBOCs.20

                  We estimated that the most commonly provided ancillary
Ancillary Services.
services were laboratory and electrocardiogram (EKG) testing: 91.4 percent
(95% CI: 82.25–96.09) and 88.5 percent (95% CI: 79.86–93.76), respectively.21

17
   There were initially 95 CBOCs in the sample; however, 3 inspections were canceled (1 CBOC was deactivated, 

1 was recently established, and 1 did not provide Primary Care). Therefore, the three CBOCs were not included in 

the data analysis for CBOC characteristics or clinical care quality. 

18
   http://vaww.pssg.med.va.gov/

19
   http://vaww.pssg.med.va.gov/

20
    VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), 

mid-size 

(1,500-5,000), or small (< 1,500). 

21
   An EKG is a test that records the electrical activity of the heart. 



VA Office of Inspector General                                                                                 6
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Many CBOCs also provide radiology, pharmacy, and physical medicine services.
A summary of the results is displayed in Table 2.

Table 2. FY 2012 CBOC Ancillary Services


                               Number of CBOCs                   Estimated VA CBOC Compliance
                             Reporting this Service
      Ancillary Services
                             (92 CBOCs Reviewed)                      95 Percent Confidence Interval Limits
                                                       Percent
                                                                           Lower                Upper
 Laboratory                            86               91.4               82.25                96.09
 EKG                                   81               88.5               79.86                93.76
 Radiology                             20               21.8               15.46                29.93
 Pharmacy                              18               19.2               12.32                28.61
 Physical Medicine                     15               14.2               8.62                 22.56
 Pulmonary Function Test                5                5.0                1.84                13.01
 Vascular Studies                       2                1.3                0.43                 3.98
 Bladder Scanning                       2                2.1                0.45                 9.48

Specialty Care Services and Procedures.         We estimated that 49.4 percent
(95% CI: 38.61–60.32) of the CBOCs provided WH services during FY 2012. We
estimated the percentage of VHA CBOCs in the provision of other specialty
services: optometry, 17.5 percent (95% CI: 11.04–26.48); podiatry, 16 percent
(95% CI: 9.02–26.89); and audiology, 12.8 percent (95% CI: 8.14–19.60). For
specialty services not provided on site, facilities reported that veterans received
needed specialty care and procedures at other geographically accessible VA
facilities through a sharing agreement with the Department of Defense (DoD),
non-VA fee-basis, or contracted facilities. Table 3 details results for the specialty
services provided on site by VHA CBOCs.

Table 3. FY 2012 CBOC Specialty Care Services

                                                                 Estimated VA CBOC Compliance
                               Number of CBOCs
    Specialty Care Service   Reporting this Service                   95 Percent Confidence Interval Limits
                             (92 CBOCs Reviewed)       Percent
                                                                           Lower                Upper
 WH                                    47               49.4               38.61                60.32
 Optometry                             17               17.5               11.04                26.48
 Podiatry                              14               16.0               9.02                 26.89
 Audiology                             13               12.8               8.14                 19.60
 Dermatology                           8                8.4                4.88                 14.07
 Dental                                6                6.1                3.05                 11.86
 Cardiology                            5                6.0                1.69                 18.93
 Orthopedics                           5                6.1                2.42                 14.68
 Urology                               5                5.9                3.03                 11.11

We also collected information on the types of providers assigned to the CBOCs
and found varied categories of primary care, MH, and specialty care clinicians.
Table 4 provides a summary of our results.


VA Office of Inspector General                                                                                7
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Table 4. Types of Providers Reported by CBOCs during FY 2012 Reviews

                                    Number of CBOCs                 Estimated VA CBOC Compliance
                                     Reporting These
              Provider              Types of Providers
                                                                         95 Percent Confidence Interval Limits
                                       (92 CBOCs          Percent
                                       Reviewed)                              Lower                Upper
 Primary Care Physicians                   86              94.3               88.42                97.26
 Licensed Clinical Social Workers          68              75.4               65.05                83.44
 Nurse Practitioner                        64              71.1               61.51                79.05
 Psychiatrist                              53              60.4               50.73                69.37
 Psychologist                              51              54.0               44.64                63.04
 Physician Assistant                       28              24.6               18.02                32.62
 Pharmacist                                17              20.2               12.81                30.34
 Audiologist                               5                4.8                1.69                12.97
 Optometrist                                5               4.6                2.14                 9.48
 Dentist                                    3               2.9                1.09                 7.54
 Podiatrist                                 3               3.2                1.19                 8.47
 Radiologist                               1               1.3                 0.28                 6.11

MH Services. We estimated that 90.2 percent (95% CI: 84.80–93.81) of the VHA
CBOCs provided MH services on site. Table 5 summarizes the MH services
provided by the CBOCs. Diagnostic and treatment planning evaluations,
psychotherapy,    and    medication     management     were    provided  by
82.3 (95% CI: 73.92–88.44),    82.4      (95%    CI:    75.04–87.93),   and
77.9 (95% CI: 67.80–85.51) percent of the CBOCs, respectively.
Table 5. FY 2012 CBOC MH Services

                                                                     Estimated VA CBOC Compliance
                                       Number of CBOCs
                                        Reporting These                        95 Percent Confidence Interval
         MH Services Provided
                                        MH Services (92                                    Limits
                                                              Percent
                                       CBOCs Reviewed)
                                                                                   Lower            Upper
 Diagnostic and Treatment
                                                77             82.3                73.92            88.44
 Planning Evaluations
 Psychotherapy                                  75             82.4                75.04            87.93

 Medication Management                          71             77.9                67.80            85.51
 Consultation to Include Post-
                                                67             73.1                63.11            81.13
 Traumatic Stress Disorder (PTSD)
 Consultation to Include Military
                                                58             64.1                53.93            73.07
 Sexual Trauma

The CBOCs also provided MH services by referring veterans to other
geographically accessible VA and non-VA providers. Table 6 details the
percentage of VHA CBOCs that initiated MH referrals during FY 2012.




VA Office of Inspector General                                                                                   8
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Table 6. FY 2012 CBOC MH Referrals

                                                                 Estimated VA CBOC Compliance
                                      Number of CBOCs
           Referral Site           Reporting MH Referrals                     95 Percent Confidence
                                    (92 CBOCs Reviewed)                           Interval Limits
                                                             Percent
                                                                              Lower             Upper
 Another VAMC                               89                96.5            91.06             98.70
 Another CBOC                               24                27.8            19.34             38.15
 Contracted Services                        9                 9.5              4.14             20.49
 Sharing Agreement with DoD                 2                 3.5              0.74             15.18
 Fee Basis Services                         25                25.6            18.26             34.70

Some CBOCs provided specialty MH services.              We estimated that
42.3 percent (95% CI: 32.07–53.18) of the CBOCs provided PTSD and
34.7 (95% CI: 24.50–46.64) percent provided substance abuse treatment. Table
7 details the specialty MH services provided by the CBOCs surveyed during FY
2012.
Table 7. FY 2012 CBOC Specialty MH

Services
                                                                 Estimated VA CBOC Compliance
                                       Number of CBOCs
           Specialty Service           Providing Specialty                    95 Percent Confidence
                                          MH Services                             Interval Limits
                                                             Percent
                                                                              Lower             Upper
 PTSD                                          36             42.3            32.07             53.18
 Substance Use Treatment                       33             34.7            24.50             46.64
 Homeless Programs                             28             29.8            21.22             40.08
 MH Intensive Case Management                  18             18.8            11.93             28.29
 Peer Support                                  17             18.6            11.86             27.86
 Social Skills Training Services               16             17.7            11.24             26.82
 Military Sexual Trauma Treatment              14             16.6            10.18             25.93
 Compensated Work Therapy                      7              8.8              4.62             16.25
 Psychosocial Rehabilitation                    6              6.9             2.99             15.02

Telemental Health Services. We estimated that telehealth services were provided
by 86 percent (95% CI: 79.41–90.78) of the CBOCs. This modality was most
frequently used for telemental health services. We estimated that 66.3 percent
(95% CI: 56.34–74.94) of the CBOCs provided care with MH clinical video
technology to remotely assess, treat, and provide care; 52.6 percent
(95% CI: 43.72–61.28) provided individual therapy for MH care through the use
of telehealth technology; and 43.6 percent (95% CI: 33.73–54.08) provided
telemental health for medication management. Table 8 summarizes the percent
of VA CBOCs provided telemental health services during FY 2012.




VA Office of Inspector General                                                                          9
                                  Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Table 8. FY 2012 CBOC Telemental Health Services

                                                                            Estimated VA CBOC Compliance
                                                Number of CBOCs
                                               Reporting Telemental                      95 Percent Confidence
     Telemental Health Services Provided
                                                Health Services (92                          Interval Limits
                                                CBOCs Reviewed)          Percent
                                                                                          Lower          Upper
 MH Clinical Video                                      60                66.3            56.34          74.94
 Individual Therapy                                     48                52.6            43.72          61.28
 Medication Management                                  42                43.6            33.73          54.08
 Group Therapy                                          22                24.9            16.75          35.38
 Case Management                                        16                18.6            11.98          27.82
 Consultation with other providers                      11                11.8             6.01          21.86
 Supervision/Guidance for Prescriptions                  7                 8.6             3.56          19.28
 Addiction and PTSD Treatment                            2                 2.8             0.93           8.26
 MH                                                      2                 2.2             0.72           6.68
 ER follow-up visits                                     1                 0.8             0.16           3.57

Issue 2: Management of Diabetes                                       Mellitus       –      Lower         Limb
Peripheral Vascular Disease
Our sample consisted of 2,675 VHA CBOC patients at least 18 years of age and
less than 71 who were seen in the CBOC for primary care appointments during
the study months of April, May, and June 2011. We excluded the patients if they
had lower limb amputations, were newly diagnosed with DM, or refused the foot
examination.         Our      resulting    sample   then     consisted       of
2,426 patients.

We conducted medical record reviews for 2,426 sampled patients. From this
sample population, we identified 139 patients who were at a moderate or greater
risk for limb loss.    We used 90 percent as the OIG benchmark for
performance. Table 9 displays the VA estimates for the selected aspects of
care.
Table 9. FY 2012 CBOC Care for Diabetes Mellitus-Lower Limb Peripheral Vascular Disease

                                           Number of Patients              Estimated VA CBOC Compliance

           Aspect of Care                                                                95 Percent Confidence
                                                                                             Interval Limits
                                        Sampled       Compliant        Percent
                                                                                         Lower           Upper
 Foot Screening                            2,426           2,253             93.3        90.74          95.12
 Foot Care Education                       2,426           1,356            63.1*        51.64          73.28
 Risk Assessment                           2,426            747             25.1*        15.45          38.17
   Orthotic Intervention for
                                            139+             85             72.7*        46.26          89.17
   At-Risk Patients
* The compliance rate was statistically significantly lower than the 90 percent OIG benchmark.
+139 patients were identified at a higher risk for limb loss through risk assessments.



VA Office of Inspector General                                                                                   10
                                      Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Foot Care Education. We estimated that 63.1 percent of VHA CBOC patients’
EHRs contained documentation indicating that foot care education was provided,
and we are 95 percent confident that the true compliance is somewhere between
51.64 and 73.28 percent.

Risk Assessments. We estimated that 25.1 percent (95% CI: 15.45–38.17) of
VHA CBOC patients whose EHRs included a completed risk assessment.

Orthotic Interventions. We estimated that 72.7 percent (95% CI: 46.26–89.17) of
VHA CBOC patients’ EHRs that had a risk classification of moderate or greater
contained documentation indicating that clinicians implemented interventions for
therapeutic footwear.

Issue 3:         Mammography Compliance

Our sample consisted of 1,617 women veterans, between the ages of
52–69, who were treated at the CBOC during May and June 2011 and had a
primary      care     visit     during    the     13-24       months     prior     to
May 1 – June 30, 2011. Our final patient sample consisted of 772 women
veterans who had a VA-covered mammogram performed on or after
June 1, 2010, after excluding patients with mammograms performed prior to
June 1, 2010; ordered by private sector provider; diagnosed with a history of
bilateral mastectomy or terminal illness (diagnosis of cancer of the esophagus,
liver, or pancreas); enrolled in hospice care; or had a life expectancy of less than
6 months.

We conducted medical record reviews to determine CBOC compliance with VHA
policy. Of the 772 sampled patients, 555 had mammograms performed by VA
fee-basis or contract providers. The requirement for mammogram results to be
linked to the provider order in CPRS is only applicable to these 555 women
veterans. We used 90 percent as the OIG benchmark for performance. A
summary of our findings are listed in Table 10.
Table 10. FY 2012 CBOC Compliance with VHA Mammography Requirements

                                                          Number of Patients     Estimated VA CBOC Compliance
                     Aspect of Care
                                                                                            95 Percent Confidence
                                                                                                Interval Limits
                                                          Total    Compliant    Percent
                                                                                              Lower      Upper
 Mammogram Results in Radiology Package                       772        662        92.8       88.35     95.62
 Mammogram Results from Fee-Basis/Contract
                                                             555+        217        55.1*      37.89     71.13
 Care Patients Linked in CPRS
 Patient Notified of Normal Result Within 14 Days             772        515        40.2*      27.34     54.67
* The compliance rate was statistically significantly lower than the 90 percent OIG benchmark.
+555 patients received mammograms through fee-basis or contract providers.


VA Office of Inspector General                                                                                11
                                  Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012




Mammography Results. We estimated that mammogram results were available
in the Radiology software package for 92.8 percent (95% CI: 88.35–95.62) of the
CBOC patients.

Results Linked to CPRS. We estimated that 55.1 percent (95% CI: 37.89–71.13)
of the results of mammograms performed by a fee-basis or contract provider
were linked to the provider order in CPRS.

Patient Normal Result Notifications.         We estimated that 40.2 percent
(95% CI: 27.34–54.67) of the CBOC patients’ EHRs contained documentation
that patients were notified of their mammogram results within 14 days.

Issue 4:         Credentialing and Privileging
We reviewed the credentialing folders for providers at 92 VHA CBOCs.
Credentialing information was validated utilizing VetPro. Provider privileges or
scopes of practice and LIP profiles were examined on site. A CBOC is
considered compliant if we published no findings or related recommendations in
a facility report. We used 90 percent as the OIG benchmark for performance. A
summary of our cumulative findings are listed in Table 11.
Table 11. FY 2012 CBOC Credentialing and Privileging Compliance

                                               Number of CBOCs              Estimated VA CBOC Compliance
             Element Reviewed                                                            95 Percent Confidence
                                                                                             Interval Limits
                                               Total      Compliant      Percent
                                                                                         Lower          Upper

 Evidence of documents reviewed and                92           72           80.4*        74.03         85.49
 rational for conclusion of privileges
 Privileges granted were facility,                 92           74           83.6*        77.81         88.12
 service, and provider specific
* The compliance rate was statistically significantly lower than the 90 percent OIG benchmark.

Documentation of Privileging Decisions. Based on the review of the credentialing
and privileging folders of LIPs, we estimated that the clinical privileges granted at
80.4 percent (95% CI: 74.03–85.49) of CBOCs included the required
documentation by the service chief.

Clinical Privileges.   We estimated that the clinical privileges granted at
83.6 percent (95% CI: 77.81–88.12) of the CBOCs were consistent with the
services provided at the CBOC settings.




VA Office of Inspector General                                                                                   12
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Issue 5:       Environment and Emergency Management
EOC. We conducted EOC inspections at 92 VHA CBOCs, evaluating each of the
following: (1) cleanliness, (2) adherence to clinical standards for infection control
and patient safety, (3) compliance with patient data security requirements, and
(4) hand hygiene monitoring. A CBOC is considered compliant if we published
no findings or related recommendations in a facility report. We used 90 percent
as the OIG benchmark for performance. We estimated that the CBOCs met
standards at the 90 percent benchmark. A summary of the compliance results is
found in Table 12.




VA Office of Inspector General                                                                     13
                                   Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Table 12. FY 2012 CBOC Compliance with EOC Requirements

                                                                     Estimated VA CBOC Compliance
                                            Number of CBOCs
            EOC Requirements                   Compliant                         95 Percent Confidence
                                          (92 CBOCs Reviewed)                        Interval Limits
                                                                 Percent
                                                                                 Lower          Upper

 ADA parking spaces                               89              96.2           90.28          98.54

 ADA entrance ramps                               91              99.1           95.69          99.80

 ADA entrance doors                               86              92.1           85.53          95.82

 ADA restrooms                                    83              88.7           82.12          93.04

 Clean Environment                                92              100              –                –

 Safe environment                                 87              95.3           91.07          97.54

 Environment in good repair                       91              98.7           94.04          99.75

 Process for expired medications                  92              100

 Secured Medications                              90              97.4           92.28          99.16

 Panic alarms in high-risk areas                  88              96.4           92.59          98.32

 Privacy maintained                               83              88.9           81.55          93.49
 Compliance with information
                                                  81              88.9           82.33          93.20
 technology rules
 Protection of personally identifiable
                                                  83              88.9           81.70          93.43
 information
 Availability of alcohol hand wash or
                                                  92              100              –                –
 soap
 Maintenance of sharps containers                 92              100              –                –

 Annual fire drills                               91              99.0           95.23          99.79

 Annual fire and safety inspections               88              95.2           89.59          97.84

 Identifiable fire extinguishers                  86              93.3           87.66          96.47
 Monitoring and analysis of hand
                                                  85              93.7           88.85          96.48
 hygiene data
 Proper patient identification for
                                                  91              99.1           96.18          99.82
 blood collection
 CBOC inclusion in facility-wide EOC
                                                  89              97.4           94.69          98.79
 activities
 Available eyewash station                        90              97.3           91.49          99.16

 Unobstructed means of egress                     91              98.1           91.53          99.58




VA Office of Inspector General                                                                           14
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


EM. We conducted EM inspections at 92 VHA CBOCs, evaluating each for
compliance with requirements for medical and MH emergencies. A CBOC is
considered compliant if we published no findings or related recommendations in
a facility report. We used 90 percent as the OIG benchmark for performance.
We estimated that the CBOCs met standards at the 90 percent benchmark. A
summary of the compliance results is found in Table 13.
Table 13. FY 2012 CBOC Compliance with EM Requirements

                                                                 Estimated VA CBOC Compliance
                                       Number of CBOCs
          Criteria Reviewed               Compliant                          95 Percent Confidence
                                     (92 CBOCs Reviewed)    Percent              Interval Limits
                                                                            Lower            Upper
 Automated External Defibrillator            92              100               –               –
 Local medical EM plan                       86             93.98           89.062           96.76
 Staff articulated medical EM plan           90             98.30            95.45           99.37
 Local medical MH plan                       83             91.23           86.11            94.58
 Staff articulated MH EM plan                88             96.33            92.85           98.15

Issue 6:        CBOC Contract Review
We conducted reviews of primary care and MH services at 20 contract CBOCs to
evaluate: (1) effectiveness of VHA oversight and administration for selected
contract provisions relating to quality of care and payment of services, (2) invoice
validation processes, and (3) proper execution of contracts and related
documents. These reviews focused on documents and records for 3rd quarter,
FY 2011.

Each CBOC engagement included: (1) a review of the contract and related
documents, (2) analysis of patient care encounter data, (3) corroboration of
information with VHA data sources, (4) site visits, and (5) interviews with VHA
and contract staff. Reviews were based on the requirements of the contract and
VA Directives 1663 and 1160.01 which detail the requirements and
responsibilities for providing care and buying health care resources. We
assessed 10 compliance categories:

     1)     Invoice Validation – Invoice validation process is designed to
            reasonably detect invoice errors and lessen the opportunity for
            improper payments.




VA Office of Inspector General                                                                       15
                                   Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


      2) 	 Technical Review – Contract documents are complete, properly
           authorized, and include support for pricing justification and use of ICA,
           where applicable.22

      3)     	Requirement for Payment – Contract clearly defines terms and
              conditions that qualify the contractor to receive payment for services.

      4) 	 Performance Measure – Contract clearly defines service expectations,
           performance benchmarks, and deficiency penalties.

      5) 	 Invoice Format – Invoice is formatted as required by the contract and
           includes description of the services rendered, date of service, and
           patient identifier.

      6) 	 Rate/Frequency of Payments – Payments are made according to the
           terms of the contract.

      7) 	 Oversight – Facility provides an adequate level of oversight to ensure
           overall contract compliance.

      8) 	 Access to Care – Access to care follows contract guidelines and VHA
           directives that require CBOCs to provide primary care and MH services,
           depending upon the number and needs of veterans in the designated
           service area.23

      9) 	 Third Party Billing – Contract includes a provision that prohibits the
           contractor from billing the patient or other third parties.

     10) Contracting Officer Technical Representative (COTR) Designation and
         Training – COTR is properly designated and has received the required
         training.

In 2008, VHA mandated the provision of varying levels of MH care in the primary
care settings, including CBOCs.24 Onsite MH services were provided at 18 of the
20 contract CBOCs. The two sites that did not offer onsite MH care reported that
patients were referred to the parent VAMC. Contract MH services were reviewed
for appropriate billing and adherence to the contract when payment was made
separate from the primary care payment. Contract CBOCs were also reviewed

22
   Per VA Directive 1663, an ICA is established to provide required health care resources on an emergency basis for 

short-term needs, or as an interim measure to complete the contracting cycle for long-term needs. 

23
   VHA Handbook 1006.1. 

24
    VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008.



VA Office of Inspector General                                                                                  16
                                    Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


to determine general responsibilities of the MH providers, which included the
types of services provided, who provides care, where services are provided, how
care is provided, and if services are provided through fee-basis agreements.

We assessed VHA’s oversight of contracted primary care and MH services. We
found discrepancies in 8 of 10 compliance categories reviewed; however, only
7 of these did not meet the 90 percent OIG benchmark used for performance.
The two categories without discrepancies were Third Party Billing and COTR
Designation and Training. Table 14 displays the compliance categories followed
by a summary of our findings.
Table 14. VHA CBOC Contract Compliance in Third Quarter, FY 2011

                                                                            Estimated VA CBOC Compliance
                                                    Number of CBOCs
                                                       Compliant                        95 Percent Confidence
                  Categories Reviewed                  (20 CBOCs
                                                                         Percent            Interval Limits
                                                       Reviewed)
                                                                                        Lower         Upper
 Invoice Validation                                            9             46.4*        26.03       68.02
 Technical Review                                             13             64.9*        39.87       83.75
 Requirements for Payment                                     14             75.0*        54.05       88.43
 Invoice Format                                               16              83.3        67.10       92.39
 Performance Measures                                         16              84.3        67.79       93.23
 Rate/Frequency of Payments                                   17              89.6        72.13       96.64
 Oversight                                                    18              85.5        52.15       96.95
 Access to Care (including traveling veterans)                19              94.6        75.85       98.98
 Third Party Billing                                          20             100.0          –           –
 COTR Designation and Training                                20             100.0          –           –
* The compliance rate was statistically significantly lower than the 90 percent OIG benchmark.

Invoice Validation Process. We estimated that 46.4 percent (95% CI: 26.03–68.02)
of contract CBOCs reviewed had an invoice validation process that was designed
to reasonably detect invoice errors and lessen the opportunity for improper
payments.

Technical Review.   We estimated that 64.9 percent (95% CI: 39.87–83.75) of
contract CBOCs reviewed had contract documents that were complete, properly
authorized, and/or included pricing justification or support for use of ICA, where
applicable.

For contracting process oversight, we found that contracting officers (COs)
awarded contracts and made contract modifications that were not in VA’s
interests and not compliant with VA policy.25 There is currently no mechanism or
process to ensure that VA directives are followed and proper approvals are


25
     VA Directive 1663.


VA Office of Inspector General                                                                                  17
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


attained prior to signing a contract. We found abuse of the ICA for periods much
longer than allowed, effectively bypassing competitive bidding.

In one case, the ICA was renewed for 3 consecutive years. One CO proceeded
with an ICA despite denial by the approving authority. Two CBOC contracts
were inappropriately changed by the CO to increase pricing less than 1 year after
contract award. There was no justification, and these resulted in an additional
cost of $209,000 over their respective 5-year contract periods.

For clinics lacking proper approval, we found that four contract CBOCs had not
gone through the required VHA approval process prior to the start of clinical
operations. These CBOCs increased access and provided quality care for
veterans. However, because these CBOCs were not officially approved, they did
not have assigned 5-digit station identifiers to report workload. The reported
EHR location for the medical care provided was under the identifier of another
clinic.

In one instance, a contractor operated two clinics (one approved and one
unapproved) less than 30 miles apart. The capitated rate charged to the VA was
double at the unapproved clinic with no justification for the difference. Due to the
close proximity of the clinics, 40 out of an estimated 2,000 patients were invoiced
by both clinics resulting in overcharges to the VA. Facility staff was unable to
identify which clinic location the patients received their care.

Requirements for Payment. We estimated that 75 percent (95% CI: 54.05–83.75)
of CBOC contracts contained clearly defined terms and conditions that qualified
the contractor to receive payment for services.

There were six noncompliant CBOC contracts that had undefined or missing
terms, or provisions that lead to inefficient use of VHA resources. Three
contracts had either undefined or conflicting terms regarding visits that qualified
for contractor payment.      These terms are critical to documenting the
understanding for payment requirements between VHA and the contractor. An
example would be defining a vested or qualified visit by identifying the specific
current procedure terminology codes that meet the billable roster criteria.
Undefined or conflicting payment provisions may result in higher costs for the VA.

Two of the six noncompliant CBOC contracts required only one qualified visit
every 24 months. This allowed the contractor to receive the monthly capitated
rate as long as the patient was seen at least once during the prior 24-month
period. We found that VHA could have saved an estimated $500,000 annually
on two contracts that required one qualifying visit every 24 months instead of




VA Office of Inspector General                                                                     18
                                   Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


every 12 months.26 VHA has adopted an annual visit requirement in the standard
CBOC contract template that should be used for future contracts. This savings is
based on actual utilization and not on medical considerations.

For the remaining one noncompliant CBOC contract, VHA paid an estimated
$320,000 more on a contract that required the prepayment of 12 months of
healthcare services and did not have a reimbursement provision for early
termination of services.27 Most VA contracts call for payment for medical
services after the services are provided. We suggest the contract have a
provision for a pro-rata reimbursement of the annual capitated payment for early
termination of services due to death, disenrollment, or transfers to other facilities.

                                            Conclusions
We estimated that the 91.4 percent (95% CI: 82.25–96.09) and 88.5 percent
(95% CI: 79.86–93.76) of the CBOCS provided laboratory and EKG studies,
respectively. Women’s health care is provided at 49.4 percent (95% CI: 38.61–
60.32) of the CBOCs while MH care services are provided by 90.2 percent
(95% CI: 84.80–93.81) of the CBOCs, and telehealth services, by 86 percent
(95% CI: 79.41–90.78) of the CBOCs.

For the evaluation of the care of diabetic patients and adherence to the PACT
Program policy, we estimated that 63.1 percent (95% CI: 51.64–73.28) of the
EHRs reviewed contained documentation indicating that foot care education was
provided. We also estimated that 25.1 percent (95% CI: 15.45–38.17) of the
CBOC patients had a completed risk assessment. Of those who had risk
classifications of “moderate or greater,” 72.7 percent (95% CI: 46.26–89.17) had
implementation of interventions for therapeutic footwear.

In our EHR reviews to determine CBOCs’ compliance with VHA requirements for
select components relating to mammography and reporting results, we estimated
that 55.1 percent (95% CI: 37.89–71.13) of the mammogram studies completed
by a fee or contract provider were linked to the provider order in CPRS. We also
estimated that 40.2 percent (95% CI: 27.34–54.67) of the patients were notified
of their mammogram results within 14 days.

In assessing for VHA compliance to credentialing and privileging requirements,
we estimated that the clinical privileges granted at 80.4 percent (95% CI: 74.03–
85.49) of the CBOCs included the required documentation by the service chief.
26
   We estimated the savings by calculating the difference between patients with a qualifying visit 12 and 24 months
for 3rd QTR FY2011 ($125,000), then projecting the savings over the year ($500,000). 
27
   We estimated the savings by identifying the portion of the full year payments made for new patients with less than
a year remaining on the contract. The $320,000 was the sum of the remaining portion of the annual capitation for
new patients who would not receive a full year’s service due to termination of the contract. 


VA Office of Inspector General                                                                                    19
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


We also estimated that the clinical privileges granted at 83.6 percent (95% CI:
77.81–88.12) CBOCs were consistent with the services provided at the CBOC
setting.

We estimated that the CBOCs met standards at the 90 percent OIG benchmark
for both EOC standards and requirements as well as for EM processes

In the review of the oversight and administration of the CBOC contracts, we
concluded that overall, most facilities were compliant with selected VA rules.
However, the compliance rates for 3 out of the 10 compliance categories were
statistically significantly lower from the 90 percent benchmark. VA estimates for
invoice validation, contract technical review, and requirements for payment were
46.4 (95% CI: 26.03–68.02), 64.9 (95% CI: 39.87–83.75), and 75.0 (95% CI:
54.05–83.75) percent, respectively.

                                   Recommendations
We recommended that the Under Secretary for Health, in conjunction with VISN
and facility senior managers:

Recommendation 1.         Ensure that CBOC clinicians document foot care
education provided to diabetic patients in the electronic health record.

Recommendation 2. Ensure that CBOC clinicians perform risk assessments
and document risk levels for diabetic patients in the electronic health record.

Recommendation 3. Ensure that CBOC clinicians document referrals for
preventative foot care, including foot wear, as clinically indicated, for patients with
diabetes in the electronic health record.

Recommendation 4. Ensure that CBOC managers establish a process to
consistently link breast imaging and mammography results to the appropriate
radiology mammogram or breast study order for all fee basis and contract
patients.

Recommendation 5. Ensure that CBOC managers establish a process to notify
patients of normal mammogram results within the allotted timeframe and that
notification is documented in the electronic health record.

Recommendation 6. Ensure that service chiefs’ documentation in VetPro
reflects documents reviewed and the rationale for privileging or re-privileging
CBOC providers.




VA Office of Inspector General                                                                     20
                                 Evaluation of VHA Community Based Outpatient Clinics Fiscal Year 2012


Recommendation 7. Ensure that facility Directors grant privileges consistent
with the services provided at the CBOCs.

Recommendation 8. Ensure that adequate resources and controls are in place
to address deficiencies in the invoice validation process and to reduce the risk of
overpayments.

Recommendation 9. Ensure that the oversight of the contract acquisition
process is compliant with VA Directives, including a thorough pre-award review
and interim contract authority prior to contract approval.

Recommendation 10. Ensure that all new CBOCs undergo the required
contract approval processes prior to initiating operations.




VA Office of Inspector General                                                                     21
                                     Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                          Appendix A

BIRADS Scores
Category          Diagnosis                                    Number of Criteria

   0            Incomplete         Need additional imaging evaluation or prior mammograms for
                                   comparison
   1             Negative          There is nothing to comment on.
   2              Benign           A definite benign finding
   3          Probably Benign      Probably benign findings (less than 2 percent malignant). Initial
                                   short-interval follow-up suggested.
   4       Suspicious Abnormality Malignancy 2 to 95 percent probability. Biopsy should be
                                  considered.
   5        Highly Suspicious of   Greater than or 95 percent probability. Appropriate action should be
                Malignancy         taken.
   6       Known Biopsy Proven     Lesions known to be malignant that are being imaged prior to
               Malignancy          definitive treatment; assure that treatment is completed.




VA Office of Inspector General                                                                         22
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                      Appendix B
                                 CBOC Site Visits 

501GC Silver City, NM                              590GB Virginia Beach (Norfolk-Virginia
501GJ Durango, CO*                                 Beach), VA
501HB Raton, NM                                    600GC Long Beach (Cabrillo), CA
502GB Lafayette, LA                                600GE Laguna Hills, CA*
506GA Toledo, OH                                   612BY Oakland, CA
506GB Flint, MI                                    612GG Chico, CA
516GH Sebring, FL                                  612GH McClellan, CA
519GA Odessa, TX                                   613GC Stephens City, VA
520BZ Pensacola (Joint Ambulatory                  613GD Franklin, WV*
Care Center), FL                                   614GA Smithville, MS*
523GA Framingham, MA                               614GI Dyersburg, TN*
526GD Sunnyside (Queens), NY                       618GA St. James (South Central), MN*
528GT Glens Falls, NY*                             618GE Chippewa Valley, WI
528GW Schenectady, NY*                             618GH Hayward, WI
528GY Clifton Park, NY                             619GA Columbus, GA
528G4 Elmira, NY                                   620GE Port Jervis, NY
528G7 Catskill, NY                                 620GH Pine Plains (E. Dutchess), NY
534BY Savannah, GA                                 626GJ Hopkinsville (Christian Co.), KY*
534GD Goose Creek, SC                              626GK McMinnville, TN*
539GA Bellevue, KY                                 630GC Brooklyn (Chapel Street), NY
539GE Hamilton, OH                                 631BY Springfield, MA
544GB Florence, SC                                 636GA Norfolk, NE
544GC Rock Hill, SC*                               636GL Bellevue, NE
544GF Sumter (Sumter County), SC                   636A5 Lincoln, NE
546GB Key West, FL                                 644GB Show Low, AZ
546GC Homestead, FL                                644GD Payson, AZ*
548GA Ft. Pierce, FL*                              650GA New Bedford, MA
549GA Tyler, TX                                    653GA North Bend, OR
549GD Denton, TX*                                  654GA Auburn (Sierra Foothills), CA
550GD Springfield, IL                              654GB Minden (Carson Valley), NV
550GF Charleston (Mattoon), IL                     656GB Montevideo, MN
553GA Yale, MI*                                    657GD O’Fallon (St. Charles), MO
562GD Franklin (Venango), PA                       663GA Bellevue (King County), WA*
564GB Ft. Smith, AR                                663GC Mount Vernon, WA
565GC Wilmington, NC                               664GC Chula Vista, CA
568GA Rapid City, SD                               664GD Escondido, CA*
568GB Pierre, SD*                                  671GB Victoria, TX
568HJ Mission, SD*                                 671GL New Braunfels, TX*
575GA Montrose, CO                                 671GO San Antonio (North Central
589GI St. Joseph, MO                               Federal Clinic), TX
589GN Emporia, KS                                  676GA Wausau, WI
589GU Lawrence, KS                                 676GC La Crosse, WI
589G2 Dodge City, KS                               676GD Wisconsin Rapids, WI
589G7 Hutchinson, KS                               687GC La Grande, OR



VA Office of Inspector General                                                                 23
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                      Appendix B
                                 CBOC Site Visits
688GB Southeast Washington, DC
688GC Greenbelt, MD
692GA Klamath Falls, OR
693GC Tobyhanna, PA
693B4 Allentown, PA
695BY Appleton, WI
695GA Union Grove, WI

* Contract CBOC




VA Office of Inspector General                                                                 24
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                      Appendix C
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                               Memorandum

      Date:         September 23, 2013

      From:         Under Secretary for Health (10)

      Subject:      Healthcare Inspection – Evaluation of Community
                    Based Outpatient Clinics, Fiscal Year 2012

      To:           Assistant Inspector General for Healthcare Inspections (54)
     1.   I have reviewed the draft report and concur with the report’s
     recommendations. Attached are corrective action plans.

     2. Should you have additional questions, please contact Karen Rasmussen,
     M.D., Acting Director, Management Review Service, at (202) 461-6643, or
     by e-mail at karen.rasmussen@va.gov.



     (original signed by:)
     Robert A. Petzel, M.D.

     Attachment




VA Office of Inspector General                                                                 25
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


                         Under Secretary for Health Comments
                         to Office of Inspector General’s Report


The following Under Secretary for Health’s comments are submitted in response
to the recommendations in the Office of Inspector General’s report:

OIG Recommendations

Recommendation 1.         Ensure that CBOC clinicians document foot care
education provided to diabetic patients in the electronic health record.

VHA Comments

Concur

Monitoring of compliance with provision of foot care education by clinicians will
be based on VHA Directive 2012-020, Prevention of Amputation in Veterans
Everywhere (PAVE) Program, which establishes requirements and outlines
specific expectations for program implementation and monitoring for VHA
facilities. The following actions will take place:

   a. 	Monthly communications with PAVE program leads will continue to be
       conducted to support field implementation efforts.

   b. Continue to monitor compliance with Directive 2012-020 via annual report
      submissions from VHA facilities. The Annual PAVE report provides
      documentation of compliance status on the mandated items in VHA
      Directive 2012-020.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

    Evidence of educational forums for Veterans Integrated Service Networks
     (VISNs) and facility clinical leadership (e.g., PowerPoint presentations, call
     minutes, or other similar documentation).

   	 Results of the Annual PAVE report on provision of patient education.




VA Office of Inspector General                                                                 26
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


Recommendation 2. Ensure that CBOC clinicians perform risk assessments
and document risk levels for diabetic patients in the electronic health record.

VHA Comments

Concur

Monitoring of compliance with risk assessments and documentation will be based
on VHA Directive 2012-020, Prevention of Amputation in Veterans Everywhere
(PAVE) Program, which establishes requirements and outlines specific
expectations for program implementation and monitoring for VHA facilities. The
following actions will take place:

   a. 	Monthly communications with PAVE program leads will continue to be
       conducted to support field implementation efforts.

   b. Continue to monitor compliance with the directive via annual report
      submissions from VHA facilities.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

    Evidence of educational forums for VISN and facility clinical leadership
     (e.g., PowerPoint presentations, call minutes, or other similar
     documentation).

   	 Results of the Annual PAVE report on provision of patient education.

Recommendation 3. Ensure that CBOC clinicians document referrals for
preventative foot care, including foot wear, as clinically indicated, for patients with
diabetes in the electronic health record.

VHA Comments

Concur

   a. 	Monthly communications with PAVE program leads will continue to be
       conducted to support field implementation efforts.

   b. Continue to monitor compliance with the directive via annual report
      submissions from VHA facilities. The Annual PAVE report provides



VA Office of Inspector General                                                                 27
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


       documentation of compliance status on the mandated items in VHA
       Directive 2012-020.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

   	 Results of the Annual PAVE report on tracking of the referral process for
      foot risk score 2 and 3 patients.

Recommendation 4. Ensure that CBOC managers establish a process to
consistently link breast imaging and mammography results to the appropriate
radiology mammogram or breast study order for all fee basis and contract
patients.

VHA Comments

Concur

In 2012-2013, VHA responded to a 2011 OIG review of VHA Community Based
Outpatient Clinics (CBOCs) which found that reports of mammography studies
performed through Fee Basis were often not documented in the electronic health
record (EHR) and linked to appropriate radiology orders. The following actions
were taken in response to the 2011 report but may not have had time to result in
improvements before the 2012 review was completed:

   a. 	In November 2011, a memo was released to Network Directors clarifying
       that VA ordering providers are required to notify patients of mammogram
       results and communicate plans for follow-up and additional testing, as
       necessary, no later than 14 days after receiving the results of the
       mammogram.

   b. In June 2012, a work group was established to examine best practices and
      advise the field of optimal pathways and standardized processes to ensure
      that mammography reports performed through Non-VA Care were
      documented in the EHR and linked to the appropriate radiology order.
      This work group, made up of representatives from Radiology, Women’s
      Health Services, Health Information Management, and Non-VA Care,
      developed a process flow map and technical guide to standardize reporting
      and documentation procedures for non-VA Care mammography results
      VHA-wide. This process was communicated to Network Directors in
      January 2013 and presented on national calls to VISN Chief Medical
      Officers/Quality Management Officers, Primary Care, Radiology Health
      Information Management, and Women’s Health programs.

VA Office of Inspector General                                                                 28
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


Actions:

   a. In	 fiscal year 2014, VHA Women’s Health Services will repeat
      communications of the process flow map and technical guide to CBOC
      managers and Women’s Health CBOC Liaisons to ensure that CBOC
      providers consistently use the radiology order to request fee basis and
      contract mammograms.

   b. The Radiology Program Office will repeat communication of the process
      flow map and technical guide on their monthly national conference call.

   c. 	The Clinical Business Systems Office will repeat communication of the
       process flow map and technical guide on the Clinical Applications
       Coordinators, National Non-VA Medical Care Program Office, Non-VA
       Medical Care Coordination Post Deployment, and Health Information
       Management conference calls to ensure technical processes are in place
       to ensure the linkage of Breast Imaging-Reporting and Data System (BI-
       RADS) results to mammogram radiology orders in CPRS.

   d. The Clinical Business Systems Office will write an article addressing this
      issue in the Clinical Business Office Purchased Care Bulletin.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

   	 Communication to CBOC Managers, CBOC Women’s Health Liaisons,
      Radiology Program, National Non-VA Medical Care Program Office, Non-
      VA Medical Care Coordination Post Deployment, Health Information
      Management, and Clinical Application Coordinators.

   	 Article included in the Clinical Business Office Purchased Care Bulletin.

Recommendation 5. Ensure that CBOC managers establish a process to notify
patients of normal mammogram results within the allotted timeframe and that
notification is documented in the electronic health record.

VHA Comments

Concur

In fiscal year 2014 VHA (Women’s Health Services and Radiology) will
communicate with CBOC managers and Women’s Health CBOC Liaisons to


VA Office of Inspector General                                                                 29
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


ensure that CBOC providers consistently communicate mammogram test results
within 14 days of receiving the result.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

   	 An educational PowerPoint outlining Directive 2012-020, Test Results, and
      expectations that are provided to the field.

   	 Minutes from national calls documenting targeted discussions regarding
      implementation of Directive 2012-020, Test Results, are conducted
      including calls to Network Directors and quadrads, Chief Medical Officers,
      Chiefs of Staff, Primary Care VISN leaders, and Primary Care facility
      leaders.

Recommendation 6. Ensure that service chiefs’ documentation in VetPro
reflects documents reviewed and the rationale for privileging or re-privileging
CBOC providers.

VHA Comments

Concur

Relevant to this report is the period of review of providers who were credentialed
and privileged at CBOCs. VHA has made a concerted effort to increase this
awareness over the last several years that may not be recognized in a review of
files prior to FY 2011. In FY 2011 the Office of Quality and Performance did an
extensive outreach to VISN and facility leadership through conference calls and
face-to-face meetings to discuss the roles and responsibilities of clinical
leadership which included documentation of provider competency.

The Director of Credentialing and Privileging is in frequent communication
through national- and VISN-level conference calls with the VISN Chief Medical
Officers (CMOs) and Quality Management Officers (QMOs) reminding them of
the importance of good documentation. Review of the credentialing and
privileging program was incorporated into the VISN reviews of facilities in
FY 2011 and the assessment tool required review of the credentials file (VetPro),
including the Service Chief documentation.

The Assessment Tool for Credentialing and Privileging is in the final stages of
modification for posting on the Office of Quality, Safety and Value (QSV) website.
The review tool is designed to guide VA staff through VHA and Joint Commission
(TJC) requirements, citing specific requirements where applicable. This review

VA Office of Inspector General                                                                 30
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


tool is designed to identify opportunities for improvement of the credentialing and
privileging and medical staff processes.

Target date for completion: September 30, 2013

This action plan is complete when VHA provides documentation of:

   	 Posting of the Assessment Tool for Credentialing and Privileging on the
      QSV website.

   	 Minutes from CMO and QMO conference calls demonstrating
      communication of VetPro documentation practices and discussion on the
      use of the Assessment Tool.

Recommendation 7. Ensure that facility Directors grant privileges consistent
with the services provided at the CBOCs.

VHA Comments

Concur

VHA has made a concerted effort to increase this awareness over the last
several years that may not be recognized in reviews of files prior to FY 2012.
The Director of Credentialing and Privileging is in frequent communication
through national- and VISN-level conference calls with the VISN CMOs and
QMOs reminding them of the requirement for privileges to be granted in
accordance with the resources available for the setting in which the care is
provided. Review of the credentialing and privileging program was incorporated
into the VISN reviews of facilities in FY 2011 and the assessment tool required a
review of the process for development, granting, and monitoring of clinical
privileges.

The Assessment Tool for Credentialing and Privileging is in the final stages of
modification for posting on the QSV website. The review tool is designed to
guide VA staff through the VHA and TJC requirements, citing specific
requirements where applicable. This review tool is designed to identify
opportunities for improvement of the credentialing and privileging and medical
staff processes. There are specific questions which address how Service Chiefs
evaluate the required resources and support for the defined privileges specific to
the settings where care is provided, including CBOCs. Questions directed to the
Chief of Staff are related to how the Chief of Staff assures that this process is
appropriately addressed.

Target date for completion: September 30, 2013

VA Office of Inspector General                                                                 31
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


This action plan is complete when VHA provides documentation of:

   	 Posting of the Assessment Tool for Credentialing and Privileging on the
      QSV website.

   	 Minutes from CMO and QMO conference calls demonstrating
      communication of the requirements of privileges and discussion on the use
      of the Assessment Tool.

Recommendation 8. Ensure that adequate resources and controls are in place
to address deficiencies in the invoice validation process and to reduce the risk of
overpayments.

VHA Comments

Concur

VHA developed and provided a CBOC template for use by the field which
addresses the invoice validation issues. The Performance Work Statement
(PWS) includes specific instructions and requirements for billing validation. The
template was provided as a resource in 2011, revised in 2012 to update for
Mental Health requirements, and again updated in July 2013. The PWS is
currently pending Office of General Counsel (OGC) and OIG final review and
comment and any required changes will be made. In addition, the Medical
Sharing/Affiliate Office (MSO) will issue a memorandum through the office of the
Deputy Under Secretary for Health for Operations and Management (DUSHOM)
to make the use of the PWS and Quality Assurance Surveillance Plan (QASP)
mandatory by all medical centers.

The CBOC Contracting Officer Healthcare training course is being tailored into a
customer training format to facilitate Contracting Officer’s Representative
information. This CBOC Customer Training will include the oversight roles and
responsibilities with the medical center.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

   	 PWS excerpts with specific instructions and requirements for billing
      validation.

   	 Memorandum from the DUSHOM making the use of the PWS and QASP
      mandatory.


VA Office of Inspector General                                                                 32
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


Recommendation 9. Ensure that the oversight of the contract acquisition
process is compliant with VA Directives, including a thorough pre-award review
and interim contract authority prior to contract approval.

VHA Comments

Concur

The Medical Sharing/Affiliate Office (MSO) has tracking tools for all phases of the
review and approval requirements for procurements that are processed through
MSO. MSO reviews all CBOC procurements in accordance with VA Directive
1663, Health Care Resources Contracting – Buying, and the VHA Procurement
Manual. MSO will commence generating a monthly award Electronic Contract
Management System (eCMS) report to validate whether CBOC procurements
have followed the mandatory review/approval process and develop a monitoring
plan to ensure validation and reporting is conducted promptly. If the procurement
is found to be not in compliance, it will be reported to the VHA Head of
Contracting for action.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

    The MSO procurement tracking tool.

    A monthly eCMS report showing validation of CBOC procurements.

Recommendation 10. Ensure that all new CBOCs undergo the required
contract approval processes prior to initiating operations.

VHA Comments

Concur

MSO will use the established tracking tools to monitor the review and approval
requirements for all procurements to be processed through MSO. MSO reviews
all CBOC procurements in accordance with VA Directive 1663, Health Care
Resources Contracting – Buying, and the VHA Procurement Manual. MSO
provides workload management reports to Network contracting offices as a tool
to facilitate the optimization of timeliness and cost effectiveness through long-
term contracts. MSO utilizes the eCMS system to create a monthly report to
monitor and review awards to validate that procurements have followed the
mandatory review/approval processes. If any non-compliance issues are
discovered, an action plan report is provided to the Service Area Office Directors,


VA Office of Inspector General                                                                 33
                                 Evaluation of Community Based Outpatient Clinics Fiscal Year 2012


VHA Deputy Chief Procurement Officer and VHA Head of Contracting for
disposition and action.

The purpose of the eCMS reports is to enhance awareness and assist in
promoting acquisition planning requirements for contracts nearing expiration.
Since proper acquisition planning is necessary for timely contract award, this
report will assist in completing the new long-term contract by the current contract
expiration and ensure continuity of services while utilizing the most efficient
contracting resources.

Target date for completion: January 31, 2014

This action plan is complete when VHA provides documentation of:

    The MSO procurement tracking tool.

    A monthly eCMS report showing validation of CBOC procurements.




VA Office of Inspector General                                                                 34
                                   Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                        Appendix D


            OIG Contact and Staff Acknowledgments


OIG Contact                      For more information about this report, please contact
                                 the Office of Inspector General at (202) 461-4720.
Acknowledgments                  Mary Toy, RN, MSN, Director, CBOC Program Review
                                 Annette Acosta, RN
                                 Nancy Albaladejo, RN
                                 Shirley Carlile, BA
                                 Marisa Casado, RN, MS
                                 Paula Chapman, CTRS
                                 Lin Clegg, PhD
                                 Marnette Dhooghe, MS
                                 Stephanie Hills, RN
                                 Zhana Johnson, CPA
                                 Anthony Leigh, Jr., CPA
                                 Sami O’Neill, MA
                                 Jennifer Reed, RN, MSHI
                                 Victor Rhee, MHS
                                 Thomas Seluzicki, CPA
                                 Patrick Smith, MS
                                 Marilyn Stones, BS
                                 Jarvis Yu, MS




VA Office of Inspector General                                                                   35
                                  Evaluation of Community Based Outpatient Clinics Fiscal Year 2012
                                                                                       Appendix E


                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Veterans Integrated Service Network Directors (1-23)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs,
 and Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs,
 and Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA Office of Inspector General                                                                  36
